                        U.S. Department of Agriculture

                           Office of Inspector General
                            Financial & IT Operations




              Audit Report

 Agreed-Upon Procedures: Retirement, Health
          Benefits, and Life Insurance
Withholdings/Contributions and Supplemental
Semiannual Headcount Report Submitted to the
    Office of Personnel Management (OPM)




                              Report No. 11401-25-FM
                                     September 2006
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250
September 22, 2006


The Honorable Patrick E. McFarland
Inspector General
Office of Personnel Management
Theodore Roosevelt Federal Building
1900 E Street NW., Room 6400
Washington, D.C. 20415-0001

Subject:      Agreed-Upon Procedures: Retirement, Health Benefits, and Life Insurance
              Withholdings/Contributions and Supplemental Semiannual Headcount Report
              Submitted to the Office of Personnel Management (OPM)

Dear Mr. McFarland:

This report presents the results of the Agreed-Upon Procedures (AUP) performed on the subject
information processed by the U.S. Department of Agriculture’s (USDA) Office of the Chief
Financial Officer/National Finance Center for fiscal year 2006.

Our review included information listed in appendix A of the Office of Management and Budget
(OMB) Bulletin No. 01-02, “Audit Requirements for Federal Financial Statements,” for the
following agencies: USDA, Department of Commerce, Department of Justice, Department of the
Treasury, Department of Homeland Security, Department of Housing and Urban Development,
Agency for International Development, and Small Business Administration.

This review was performed as required by OMB and in accordance with the Statements on
Standards for Attestation Engagements established by the American Institute of Certified Public
Accountants.

If you have any questions, please contact me at (202) 720-6945, or have a member of your
contact Steven Rickrode, Director, Administration and Finance Division, at (202) 720-1918.

Sincerely,


/s/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit

cc:
Clarence C. Crawford, Chief Financial Officer, OPM
Executive Summary
Agreed-Upon Procedures:        Retirement, Health Benefits, and Life Insurance
Withholdings/Contributions and Supplemental Semiannual Headcount Report
Submitted to the Office of Personnel Management (OPM) (Audit Report No. 11401-25-
FM)

Results in Brief               This report presents the results of the Agreed-Upon Procedures (AUP)
                               performed on the retirement, health benefits, and life insurance
                               withholdings/contributions and supplemental semiannual headcount reports
                               submitted to the U.S. Office of Personnel Management (OPM) by the U.S.
                               Department of Agriculture’s (USDA) Office of the Chief Financial
                               Officer/National Finance Center (OCFO/NFC) for fiscal year 2006. 1

                               Our objective was to perform the AUPs detailed in the Office of Management
                               and Budget Bulletin No. 01-02, “Audit Requirements for Federal Financial
                               Statements,” dated October 19, 2000, in order to assist OPM in assessing the
                               reasonableness     of     retirement,   health,     and     life   insurance
                               withholdings/contributions and employee data submitted by the USDA
                               OCFO/NFC for the following agencies listed in OMB Bulletin No. 01-02,
                               Appendix A:       Department of Agriculture, Department of Commerce,
                               Department of Justice, Department of the Treasury, Department of Homeland
                               Security, Department of Housing and Urban Development, Agency for
                               International Development, and Small Business Administration.

                               There were no differences that exceeded the allowable thresholds noted during
                               our review; however, we identified five input errors for benefits entered into the
                               system by the various Departments’ personnel officer. We were also unable to
                               verify 21 personnel documents because the various Departments were unable to
                               locate the documents requested. However, we performed the calculations for
                               salary, retirement, life, and health insurance in these cases to ensure that the
                               OCFO/NFC systems were accurate. We noted no exceptions. Details are
                               provided in exhibit A.




1
  We selected our samples from pay period 24 (November 27 – December 10, 2005), pay period 02 (January 22 – February 4, 2006), and pay period 03
(February 5 – February 18, 2006) of fiscal year 2006 and the OPM 1523, “Supplemental Semiannual Headcount Report,” as of February 18, 2006.

USDA/OIG-A/11401-25-FM                                                                                                                 Page i
Abbreviations Used in This Report



AUP               Agreed-Upon Procedures
CSRS              Civil Service Retirement System
CFO               Chief Financial Officer
FEGLI             Federal Employees’ Group Life Insurance
FERS              Federal Employees’ Retirement System
IG                Inspector General
NFC               National Finance Center
OCFO              Office of the Chief Financial Officer
OMB               Office of Management and Budget
OPF               Official Personnel Files
OPM               Office of Personnel Management
RITS              Retirement and Insurance Transfer System
SF                Standard Form
USDA              U.S. Department of Agriculture




USDA/OIG-A/11401-25-FM                                       Page ii
Table of Contents
Executive Summary ....................................................................................................................... i

Abbreviations Used in This Report ............................................................................................. ii

Report of the Office of Inspector General .................................................................................. 1

Exhibit A – Procedures Performed and Results ........................................................................ 3




USDA/OIG-A/11401-25-FM                                                                                                         Page iii
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250



Report of the Office of Inspector General

TO:    Honorable Patrick E. McFarland
       Inspector General
       U.S. Office of Personnel Management


We have performed the procedures described in exhibit A, which were agreed to by the Inspector
General (IG) and Chief Financial Officer (CFO) of the U.S. Office of Personnel Management
(OPM), solely to assist with respect to the employee withholdings and employer contributions
reported by the U.S. Department of Agriculture’s Office of the Chief Financial Officer/National
Finance Center (OCFO/NFC) on the Standard Form 2812, “Report of Withholdings and
Contributions for Health Benefits, Life Insurance, and Retirement,” for the payroll periods
ending December 10, 2005 (pay period 24), February 4, 2006 (pay period 2), and February 18,
2006 (pay period 3), of fiscal year 2006, and OPM 1523, “Supplemental Semiannual Headcount
Report,” as of February 18, 2006. The reports submitted by OCFO/NFC included information
for the following entities listed in appendix A of the Office of Management and Budget Bulletin
No. 01-02, “Audit Requirements for Federal Financial Statements”: Department of Agriculture,
Department of Commerce, Department of Justice, Department of the Treasury, Department of
Homeland Security, Department of Housing and Urban Development, Agency for International
Development, and Small Business Administration.

The engagement to apply the Agreed-Upon Procedures was performed in accordance with the
standards established by the American Institute of Certified Public Accountants. The sufficiency
of the procedures is solely the responsibility of the IG and the CFO of OPM. Consequently, we
make no representations regarding the sufficiency of the procedures described either for the
purpose for which this report has been requested or for any other purpose. The results of the
engagement are detailed in exhibit A.

We were not engaged to, and did not, perform an audit, the objective of which would be the
expression of an opinion on the withholdings and contributions for health benefits, life insurance,
and retirement, and the headcount reports prepared by OCFO/NFC. Accordingly,
we do not express such an opinion. Had we performed additional procedures, other matters
might have come to our attention that would have been reported to you.




USDA/OIG-A/11401-25-FM                                                                     Page 1
This report is intended solely for the use of the IG and CFO of OPM and should not be used by
those who have not agreed to the procedures and taken responsibility for the sufficiency of the
procedures for their purposes.


/s/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit

August 31, 2006

cc:
Clarence C. Crawford, Chief Financial Officer, OPM




USDA/OIG-A/11401-25-FM                                                                 Page 2
Exhibit A – Procedures Performed and Results
1.   Compared the Retirement and Insurance Transfer System (RITS) submission data with
     payroll information by performing the following procedures.

     a. Recalculated the mathematical accuracy of the payroll information. For cross-servicing
        agencies, if the internal controls were the same for all agencies serviced, it was only
        necessary to perform this procedure for one agency.

     b. Recalculated the mathematical accuracy of each RITS submission for the payroll
        information selected in step 1.a.

     c. Compared the employee withholding information shown on the payroll information
        obtained in step 1.a. for retirement, health benefits, and life insurance (as adjusted for
        reconciling items) to the related amounts shown on the RITS submission for the
        corresponding period.

     Report any differences for retirement, health benefits, and life insurance that are over
     1 percent of the total reported for each of the three categories. Report and obtain
     management’s explanation for those differences above the 1 percent threshold.

     Results

     There were no differences over 1 percent.

2.   a. Randomly selected a total of 25 individuals who were on the payroll system for all 3 of
        the RITS submissions selected and met all the following criteria:

        •      Covered by Civil Service Retirement System (CSRS) or the Federal Employees
               Retirement System (FERS);
        •      enrolled in the Federal Employees Health Benefits Program;
        •      covered by Basic Life Insurance; and
        •      covered by at least one Federal Employees’ Group Life Insurance (FEGLI) optional
               coverage (Option A, B, or C).

     b. Obtained the following documents, either in electronic or hard copy format, from the
        Official Personnel File (OPF) for each individual selected in step 2.a. Hard copies
        could be originals or certified copies.

        •      All Notifications of Personnel Actions (Standard Form (SF) 50) covering the pay
               periods in the RITS submission chosen.

        •      The Health Benefits Election Form (SF-2809) covering the pay periods in the RITS
               submission chosen or, if applicable, requested that the agency personnel office
               obtain a report from the agency’s automated system that allows participants to


USDA/OIG-A/11401-25-FM                                                                    Page 3
Exhibit A – Procedures Performed and Results
           change benefits (e.g., Employee Express) for any health benefits transaction in that
           system for the individuals selected in step 2.a. Compared date of transaction with
           date on the certified copy of the SF-2809 or the agency’s automated system report
           requested. Confirmed that the health benefit information to be used in step 2.f.
           covers the pay periods in the RITS submissions chosen (note: a new SF-2809 was
           needed only if an employee was changing health benefit plans; therefore, the form
           could be many years old).

       •   The Life Insurance Election Form (SF-2817) covering the pay periods in the RITS
           submission chosen (note: a new SF-2817 was needed only if an employee was
           changing coverage; therefore, the form could be many years old).

       Results

       Department personnel officers could not locate 19 of the requested personnel
       documents from the individual’s Official Personnel Folder. Please see the chart below:

                           Department         SF-50    FEHB     FEGLI
                       Agriculture              1        2        0
                       USAID                    0        1        2
                       Justice                  0        2        0
                       Homeland Security        0        0        3
                       Housing and Urban        0        1        4
                       Development
                       Small Business           0        3         0
                       Administration
                       Total                    1        9         9

    c. Compared the base salary used for payroll purposes and upon which withholdings and
       contributions generally are based with the base salary reflected on the employee’s
       SF-50. Report any differences and obtain management’s explanation of the differences.

       Results

       No exceptions noted.

    d. For retirement, compared the plan code on the employee’s SF-50 to the plan code used
       in the payroll system. Report any differences and obtain management’s explanation of
       the differences.

       Results

       No exceptions noted.
USDA/OIG-A/11401-25-FM                                                                 Page 4
Exhibit A – Procedures Performed and Results
    e. Calculated the retirement amount to be withheld and contributed for the plan code from
       the employee’s SF-50, based upon the official withholding and contribution rates
       required by law. Compared to actual amounts withheld and contributed. Report any
       differences and obtain management’s explanation of the differences.

       Results

       No exceptions noted.

    f. For health benefits, compared the employee withholdings and agency contributions
       with the official subscription rates issued by the Office of Personnel Management
       (OPM) for the plan and option elected by the employees, as documented by a Health
       Benefits Election Form (SF-2809) in the employee’s OPF or automated system that
       allows the participant to change benefits (e.g., Employee Express). Report any
       differences and obtain management’s explanation of the differences.

       Results

       We found one sample item for the Small Business Administration that did not match
       the health code in the payroll system. Management stated that this was a result of an
       input error.

    g. For life insurance, confirmed that Basic Life Insurance was elected by the employees,
       as documented by a Life Insurance Election Form (SF-2817), in his/her OPF. Report
       any differences and obtain management’s explanation of the differences.

       Results

       We found four sample items that did not match the FEGLI code in the payroll system,
       one each for the Agency for International Development, Small Business
       Administration, Housing and Urban Development, and Treasury. Management stated
       that these were a result of input errors.

    h. Calculated the withholding and contribution amounts for Basic Life Insurance using the
       following.

       •   For employee withholdings: Rounded the employee’s annual base salary up to the
           nearest thousand dollars and add $2,000. Divided this total by 1,000 and multiplied
           the rate required by law. The life insurance rates could be found in the FEGLI
           Program Booklet on OPM’s website.

       •   For agency contributions: Divided the employee withholdings calculated above by
           two.



USDA/OIG-A/11401-25-FM                                                                Page 5
Exhibit A – Procedures Performed and Results
       •   Compared to actual amounts withheld and contributed. Report any differences and
           obtain management’s explanation of the differences.

       Results

       No exceptions noted.

    i. Also, for life insurance, compared optional coverage elected as documented by an
       SF-2817 in the employee’s OPF with optional coverage documented in the payroll
       system. Report any differences and obtain management’s explanation of the
       differences.

       Results

       No exceptions noted.

    j. Calculated the withholding amounts for optional life insurance using the following.

       •   For Option A: Determined the employee’s age group using the age groups provided
           for Option A in the FEGLI Program Booklet. The withholding amount was the rate
           listed in the FEGLI Program Booklet for that age group. Compared to amount
           withheld. Report any differences and obtain management’s explanation of the
           differences.

       Results

       No exceptions noted.

       •   For Option B: Inspected the SF-2817 to determine the number of multiples chosen
           for Option B. Determined the employee’s age group using the age groups provided
           for Option B in the FEGLI Program Booklet. Rounded the employee’s annual rate
           of basic pay up to the next 1,000, divided by 1,000, and multiplied by the rate for
           the age group. Multiplied this amount by the number of multiples chosen.
           Compared to amount withheld. Report any differences and obtain management’s
           explanation of the differences.

       Results

       No exceptions noted.

       •   For Option C: Inspected the SF-2817 to determine the number of multiples chosen
           for Option C. Determined the employee’s age group using the age groups provided
           for Option C in the FEGLI Program Booklet. Multiplied the rate for the age group
           by the number of multiples chosen. Compared to amount withheld. Report any
           differences and obtain management’s explanation of the differences.
USDA/OIG-A/11401-25-FM                                                                 Page 6
Exhibit A – Procedures Performed and Results
         Results

         No exceptions noted.

3. Randomly selected a total of 10 employees who have no health benefits withholdings from
   the payroll information corresponding to the 3 RITS submissions selected for testing above.

   Requested SF-2809’s covering the pay periods in the RITS submissions chosen, either in
   electronic or hard copy format, from the selected employees’ OPFs or, if applicable,
   requested that the agency personnel office obtain a report from the agency’s automated
   system that allowed participants to change benefits (e.g., Employee Express) for any health
   benefit transactions in that system for the individuals selected. Hard copies could be
   originals or certified copies. Inspected the documentation to determine that health benefits
   coverage was not elected. This could be determined in the following ways:

   •   Absence of an SF-2809 in the OPF and no election of coverage made through the
       agency’s automated system that allows participants to change benefits (e.g., Employee
       Express); or
   •   an SF-2809 in the OPF with Section E checked (indicating cancellation of coverage) and
       no later election of coverage through the agency’s automated system that allows
       participants to change benefits (e.g., Employee Express); or
   •   cancellation of coverage through the agency’s automated system that allows participants
       to change benefits (e.g., Employee Express) and no later election of coverage with an
       SF-2809.

   Report any exceptions.

   Results

   The personnel officer for the Department of Housing and Urban Development could not
   locate a form for one of the sample items.

4. Randomly selected a total of 10 employees who had no life insurance withholdings from the
   payroll information corresponding to the 3 RITS submissions selected for testing above.
   Requested the SF-2817s covering the pay periods in the RITS submission chosen, either in
   electronic or hard copy format, from the selected employees’ OPFs. Hard copies could be
   originals or certified copies. Inspected the SF-2817 to determine that the employee waived
   or cancelled Basic Life Insurance coverage. Report any exceptions.

   Results

   The personnel officer for the Department of Housing and Urban Development could not
   locate a form for one of the sample items.



USDA/OIG-A/11401-25-FM                                                                 Page 7
Exhibit A – Procedures Performed and Results
5. Calculated the headcount reflected on the Supplemental Semiannual Headcount Report
   selected for testing above, as follows.

   a.   Obtained existing payroll information supporting the selected Supplemental
        Semiannual Headcount Report. If existing payroll data was not available, had a payroll
        system query performed that summarized detailed payroll data supporting the
        Supplemental Semiannual Headcount Report, as follows:

        •     Benefit category (see Semiannual Headcount Report)
        •     Dollar amount of withholdings and contributions
        •     Number enrolled (deductions made/no deductions)
        •     Central Personnel Data File Code
        •     Aggregate base salary

   b.   Recalculated the headcount reflected on the Supplemental Semiannual Headcount
        Report. If an electronic file was not available, a suggested method of recalculating the
        headcount was as follows: (1) estimated the number of employees per payroll register
        page by counting the employees listed on several pages, (2) counted the number of
        pages in the payroll register, and (3) multiplied the number of employees per page by
        the number of pages, or counted (using a computer audit routine) the number of
        employees on the payroll data file for the period.

   c.   Compared the results of payroll information from step 5.a. with the calculated
        headcount from step 5.b. to the information shown on the Supplemental Semiannual
        Headcount Report.

   d.   Report any differences and obtain management’s explanation of the differences (i.e.,
        gross rather than net) greater than 2 percent between the headcount reporting on the
        agency’s Supplemental Semiannual Headcount Report and the payroll information from
        step 5.a. and the calculated Headcount from step 5.b.

   Results

   There were no differences greater than 2 percent.

6. Calculated employer and employee contributions for retirement, health benefits, and life
   insurance.

   a. Calculated Retirement withholdings and contributions for the three pay periods selected,
      as follows:

             i.   Multiplied the CSRS and FERS payroll base by the withholding and employer
                  contribution rates required by law.


USDA/OIG-A/11401-25-FM                                                                  Page 8
Exhibit A – Procedures Performed and Results
         ii.     Compared the calculated totals with related amounts shown on the RITS
                 submissions. Report any variances and obtain management’s explanation of the
                 variances (i.e., gross rather than net) between the calculated amounts and the
                 amounts reported on the RITS submissions greater than 5 percent of the
                 amounts on the RITS submission.

       Results

       There were no differences greater than 5 percent.

    b. Calculated employee withholdings and employer contributions for health benefits for
       the three pay periods selected as follows.

          i.     Multiplied the number of employees enrolled in each health benefits plan and
                 plan option by the employee withholdings and employer contributions for the
                 plan and option.

         ii.     Summed the totals in step 6.b.i. and compared the result with the health benefit
                 withholding and contribution amounts shown on the RITS submissions. Report
                 any variances and obtain management’s explanation of the variances (i.e., gross
                 rather than net) between the calculated amounts and the amounts reported on the
                 RITS submissions greater than 5 percent of the amounts on the RITS
                 submission.

       Results

       There were no differences greater than 5 percent.

    c. Calculated the Basic Life Insurance employee withholdings and employer contributions
       for the three pay periods selected as follows.

           i. Had agency payroll office personnel perform a payroll system query to
              determine the total number of employees with Basic Life Insurance coverage
              and the aggregate annual basic pay for all employees with Basic Life Insurance.

           ii. For employee withholdings: Added the product of 2,000 times the number of
               employees with Basic Life Insurance coverage to the aggregate annual basic pay
               for all employees selected. This represented the estimated total Basic Life
               Insurance coverage. Divided this total by 1,000 and multiplied by the rate
               required by law. The life insurance rates could be found in the FEGLI Program
               Booklet on OPM’s website.




USDA/OIG-A/11401-25-FM                                                                   Page 9
Exhibit A – Procedures Performed and Results
           iii. Compared the result in step 6.c.ii. to the withholdings for Basic Life Insurance
                coverage reported on the RITS submission. Report any difference and obtain
                management’s explanation of the difference (i.e., gross rather than net) between
                the estimate and the amount of withholdings reported on the RITS submission
                greater than 5 percent of the amounts on the RITS submission.

       Results

       There were no differences greater than 5 percent.

           iv. For agency contributions: Divided the results of step 6.c.ii. by two–this
               approximates agency contributions, which are one-half of employee
               withholdings. Compared this result to the amount reported on the RITS
               submission and report any differences and obtain management’s explanation of
               the differences (i.e., gross rather than net) between the estimate and the amount
               reported on the RITS submission greater than 5 percent of the amounts on the
               RITS submission.

       Results

       There were no differences greater than 5 percent.

    d. Calculated the Option A, Option B, and Option C Life Insurance coverage withholdings
       for the three pay periods selected by using detail payroll reports used to reconcile the
       RITS reports in Step 1. In addition to the information used for step 1, the reports
       should have included the employee’s date of birth, annual rate of basic pay, and number
       of multiples selected for Option B and C. Note: While similar to step 2.j., the
       calculation here was for the entire amount reported on the RITS submissions for the
       three pay periods selected, as opposed to the sample of 25 employees in step 2.j.

         i. Multiplied the number of employees in each age group by the appropriate rate for
            Option A in accordance with the rates for age groups provided in the FEGLI
            Program Booklet. Report any differences (i.e., gross rather than net) greater than
            2 percent of the amounts on the RITS submission.

       Results

       There were no differences greater than 2 percent.

         ii. Divided the reports for Option B and Option C insurance into the age groups
             shown in the FEGLI Program Booklet. For Option B, rounded




USDA/OIG-A/11401-25-FM                                                                 Page 10
Exhibit A – Procedures Performed and Results
            the employee’s annual rate of basic pay up to the next 1000, divided by 1000,
            multiplied by the rate for the age group, multiplied this by the number of
            multiples.

            (Annual rate of basic pay (rounded up)/1000*rate*multiples)

            For Option C, multiplied the rate for the age group by the number of multiples
            chosen for each employee. Report any differences and obtain management’s
            explanation of the differences (i.e., gross rather than net) greater than 2 percent of
            the amounts on the RITS submission for Option B and/or Option C.

       Results

       There were no differences greater than 2 percent.




USDA/OIG-A/11401-25-FM                                                                   Page 11
